No. 20IN THE

Supreme Court of the United States
_____________

WARREN KEITH HENNESS,
v.
MIKE DEWINE, et al.,
_____________

Petitioner,

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit
_____________

PETITION FOR A WRIT OF CERTIORARI
_____________

EXECUTION SCHEDULED
FOR JANUARY 12, 2022
_____________

DEBORAH WILLIAMS
FEDERAL PUBLIC DEFENDER
SOUTHERN DISTRICT OF
OHIO
DAVID C. STEBBINS
ALLEN L. BOHNERT
ADAM M. RUSNAK
PAUL R. BOTTEI
LISA M. LAGOS
THEODORE C. TANSKI
10 W. Broad Street
Suite 1020
Columbus, OH 43215
(614) 469-2999

JEAN-CLAUDE ANDRÉ *
COLLIN P. WEDEL
ANDREW B. TALAI
SIDLEY AUSTIN LLP
555 W. Fifth Street
Suite 4000
Los Angeles, CA 90013
(213) 896-6000
jcandre@sidley.com
J. MANUEL VALLE
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

Counsel for Petitioner
July 17, 2020

* Counsel of Record

CAPITAL CASE
QUESTIONS PRESENTED
1. Whether the Eighth Amendment categorically
permits the degree of pain caused by hanging—including sensations of drowning and suffocation—or
whether, as this Court held in Bucklew v. Precythe, 139
S. Ct. 1112, 1126 (2019), “[d]istinguishing between
constitutionally permissible and impermissible degrees of pain . . . is a necessarily comparative exercise”
that requires examining viable alternative methods of
execution.
2. Whether Bucklew’s statement that a State need
not “be the first to experiment with a new method of
execution” permits a State to categorically reject an alternative method with a proven record of ending life
effectively and humanely in the medical aid-in-dying
context on the ground that other States have not used
that method in the execution context.
3. Whether the Sixth Circuit, contrary to Bucklew’s
admonition, has “overstated” an inmate’s burden of
identifying an available alternative method by permitting a State to claim that a drug is “unavailable” even
if the State has made no attempt—let alone a goodfaith effort—to obtain the drug from the ready and
willing supplier an inmate has identified.

(i)

ii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Petitioner is Warren Keith Henness, an inmate incarcerated at the Chillicothe Correctional Institution.
Respondents are Mike DeWine, Governor of the
State of Ohio; Anonymous Execution Team Members
1–50, c/o Southern Ohio Correctional Facility; Charles
Bradley, Warden, Franklin Medical Center; John Does
1–25; Stephen Gray, Christopher Larose, Richard Theodore, Pharmacist, c/o Ohio Department of Rehabilitation and Correction (ODRC); Unknown Drug Suppliers
1–25; Unknown Pharmacists 1–100; Edwin Voorhies,
Managing Director of Operations, ODRC; John Coleman, Warden, Toledo Correctional Institution; Ronald
Erdos, Warden, Southern Ohio Correctional Facility;
Unknown Pharmacies; Unnamed and Anonymous Execution Team Members; Tim Shoop, Warden, Chillicothe Correctional Center; Stuart Hudson, Director,
ODRC.
There are no corporate parties involved in this case.
RELATED PROCEEDINGS
United States District Court (S.D. Ohio)
In re Ohio Execution Protocol Litig., No. 2:11-CV1016 (Jan. 14, 2019)
United States Court of Appeals (6th Cir.)
In re Ohio Execution Protocol Litig., No. 19-3064
(Dec. 17, 2019)

TABLE OF CONTENTS

Page

QUESTIONS PRESENTED .................................

i

PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT ..........................................

ii

RELATED PROCEEDINGS.................................

ii

TABLE OF AUTHORITIES .................................

v

PETITION FOR A WRIT OF CERTIORARI .......

1

OPINIONS AND ORDERS BELOW ...................

1

STATEMENT OF JURISDICTION .....................

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED .........................................

1

INTRODUCTION .................................................

2

STATEMENT........................................................

4

REASONS FOR GRANTING THE PETITION ....

11

I. THIS CASE PRESENTS PRESSING QUESTIONS REGARDING THE STANDARDS
THAT GOVERN METHOD-OF-EXECUTION
CHALLENGES. ............................................... 12
A. The Sixth Circuit’s Holding That The
Eighth Amendment Categorically Permits The Pain Of Suffocation Conflicts
With Bucklew And Baze, And Inhibits
Eighth Amendment Review Of Ohio’s
Execution Protocol. ............................... 12
B. By Allowing Ohio To Reject As “Experiment[al]” Any Execution Method
Unused By Other States, The Sixth
Circuit Wrongly Let State Law Dictate
The Eighth Amendment’s Scope. ......... 17
(iii)

iv
TABLE OF CONTENTS—continued

Page

C. The Sixth Circuit “Overstated” An
Inmate’s Burden By Letting Ohio
Reject An Alternative Drug As
“Unavailable” Despite Making No
Effort To Obtain The Drug From A
Ready And Willing Vendor. .................. 23
II. THIS CASE IS AN IDEAL VEHICLE FOR
ADDRESSING THESE EXCEPTIONALLY
IMPORTANT QUESTIONS............................ 25
CONCLUSION .....................................................

28

APPENDICES
APPENDIX A: In re Ohio Execution Protocol
Litig., 946 F.3d 287 (6th Cir. 2019) ..................

1a

APPENDIX B: In re Ohio Execution Protocol
Litig., 937 F.3d 759 (6th Cir.), opinion amended
and superseded, 946 F.3d 287 (6th Cir. 2019) ....

7a

APPENDIX C: Decision and Order on Motion for
Stay of Execution and Preliminary Injunction,
In re Ohio Execution Protocol Litig., No. 2:11CV-1016, 2019 WL 244488 (S.D. Ohio Jan. 14,
2019), aff’d, 946 F.3d 287 (6th Cir. 2019) ......... 13a
APPENDIX D: Decision and Order on Motion for
Reconsideration, In re Ohio Execution Protocol
Litig., No. 2:11-CV-1016 (S.D. Ohio Jan. 22,
2019), ECF No. 2142, 2019 WL 275646 ............ 161a
APPENDIX E: Order Denying Rehearing En
Banc, In re Ohio Execution Protocol Litig., No.
19-3064 (6th Cir. Feb. 19, 2020), ECF No. 66.... 168a

v
CASES

TABLE OF AUTHORITIES

Page

Advocate Health Care Network v. Stapleton,
137 S. Ct. 1652 (2017) ................................
27
Arizona v. Evans, 514 U.S. 1 (1995) .............
27
Arthur v. Comm’r, Ala. Dep’t of Corr., 840
F.3d 1268 (11th Cir. 2016), abrogated in
part by Bucklew v. Precythe, 139 S. Ct.
1112 (2019) .................................................
17
Barr v. Lee, No. 20A8, 2020 WL 3964985
(U.S. July 14, 2020) ....................................
27
Baze v. Rees, 553 U.S. 35 (2008) ............... passim
Bucklew v. Precythe, 139 S. Ct. 1112
(2019) ...................................................... passim
Cooey v. Strickland, 604 F.3d 939 (6th Cir.
2010) ...........................................................
22
In re Fed. Bureau of Prisons’ Execution
Protocol Cases, 955 F.3d 106 (D.C. Cir.
2020), cert. denied sub nom. Bourgeois v.
Barr, No. 19-1348, 2020 WL 3492763 (U.S.
June 29, 2020) ............................................
26
Glossip v. Gross, 135 S. Ct. 2726 (2015) .... passim
Haywood v. Drown, 556 U.S. 729 (2009) ......
27
Johnson v. Precythe, 954 F.3d 1098 (8th Cir.
2020) ...........................................................
22
In re Ohio Execution Protocol Litig., 994 F.
Supp. 2d 906 (S.D. Ohio 2014) ...................
22
Price v. Comm’r, Ala. Dep’t of Corr., 920 F.3d
1317 (11th Cir.), cert. denied sub nom.
Price v. Dunn, 139 S. Ct. 1542 (2019) .......
22
Rice v. Sioux City Mem’l Park Cemetery, Inc.,
349 U.S. 70 (1955) ......................................
27
Wilkins v. Gaddy, 559 U.S. 34 (2010) ...........
13
Zagorski v. Parker, 139 S. Ct. 11 (2018).......
5

vi
TABLE OF AUTHORITIES—continued
CONSTITUTION AND STATUTE
Page
U.S. Const. amend. VIII ................................
42 U.S.C. § 1983 ............................................

1
2

OTHER AUTHORITIES
Jo Ingles, Governor Issues Three Reprieves of
Execution, WKSU (Feb. 1, 2020), https://
www.wksu.org/post/governor-issues-threereprieves-execution#stream/0....................
Edecio Martinez, Kenneth Biros Execution:
Ohio Man First to Die Under 1-Drug Thiopental Sodium Method, CBS News (Dec. 8,
2009), https://cbsn.ws/2MYYJZb ...............
Edecio Martinez, Ohio Execution Uses Animal Euthanasia Drug, CBS News (Mar.
11, 2011), https://cbsn.ws/30qyTVP...........

25

21
21

PETITION FOR A WRIT OF CERTIORARI
Warren Keith Henness respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit.
OPINIONS AND ORDERS BELOW
The opinion of the court of appeals (Pet. App. 1a–6a)
is reported at 946 F.3d 287. This opinion superseded
an original opinion (Pet. App. 7a–12a) reported at 937
F.3d 759. The order of the district court (Pet. App. 3a–
160a) is not published in the Federal Supplement but
is available at 2019 WL 244488.
STATEMENT OF JURISDICTION
The judgment of the court of appeals was entered on
December 17, 2019. Pet. App. 1a. Petitioner filed a
timely motion for rehearing, which the Sixth Circuit
denied on February 19, 2020. This Court then issued
an order extending the deadline to file any petition for
a writ of certiorari to 150 days from the order denying
the petition for rehearing. The jurisdiction of this
Court rests on 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Eighth Amendment to the U.S. Constitution
provides that “[e]xcessive bail shall not be required,
nor excessive fines imposed, nor cruel and unusual
punishments inflicted.” U.S. Const. amend. VIII.
Section 1983 of Title 42 of the U.S. Code provides:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State . . . , subjects, or causes to be subjected, any
citizen of the United States . . . to the deprivation

2
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or
other proper proceeding for redress . . . .
42 U.S.C. § 1983.
INTRODUCTION
In Bucklew v. Precythe, this Court highlighted just
how horrific a botched hanging could be. 139 S. Ct.
1112, 1124 (2019). In the best of cases, hanging, Bucklew explained, could cause death instantly (by
“sever[ing] the spinal cord”) or after several seconds
(“from loss of blood flow to the brain”). Id. But, often, a
botched hanging could inflict “significant pain,” resulting from “several minutes” of slow, excruciating “suffocation.” Id. The primary question in this case is
whether, notwithstanding other available execution
methods, the Eighth Amendment categorically permits the pain and terror accompanying those minutes
of slow suffocation.
The Sixth Circuit said that it does, misreading this
Court’s discussion of hanging as somehow ossifying
the constitutionality of any method of execution that
could be characterized as inflicting a similar degree of
suffering. Indeed, the Sixth Circuit has concluded that
such pain is simply not “constitutionally cognizable.”
Pet. App. 4a. But Bucklew shunned such categorical
classifications, holding, in no uncertain terms, that
“[d]istinguishing between constitutionally permissible
and impermissible degrees of pain . . . is a necessarily
comparative exercise” that requires examining alternative methods of execution. 139 S. Ct. at 1126. The
Sixth Circuit’s per se rule irreconcilably conflicts with
Bucklew’s comparative framework—and, in so doing,
categorically sanctions a type of suffering this Court
has described as “constitutionally unacceptable.” Baze

3
v. Rees, 553 U.S. 35, 53 (2008) (plurality opinion). The
Sixth Circuit’s rule cannot stand.
The Sixth Circuit compounded the need for this
Court’s review by rejecting a safe and proven alternative execution method based on further misreadings of
this Court’s precedent. Specifically, the Sixth Circuit
held that States may categorically reject as “experiment[al]” (Pet. App. 5a) any method unused by other
States for executions, even if that method is easily implemented and has been proven to cause death painlessly, outside of the execution context, in hundreds of
medically assisted deaths throughout the United
States and the world. In so holding, the Sixth Circuit
effectively allowed States’ choices of which execution
methods they authorize to dictate the Eighth Amendment’s scope—something this Court, in Bucklew,
unanimously forbade. 139 S. Ct. at 1136 (Kavanaugh,
J., concurring) (“[A]ll nine Justices today agree on that
point.”).
Bucklew also warned lower courts that an inmate’s
burden of identifying an available alternative execution method must not be “overstated,” especially when
there is a real likelihood the inmate could suffer severe
pain under the existing method. Id. at 1128 (majority
opinion). The Sixth Circuit ignored this warning too,
holding that a State could reject an alternative execution drug as unavailable despite having made no attempt—let alone the “good-faith effort” this Court
found sufficient in Glossip v. Gross, 135 S. Ct. 2726
(2015)—to obtain the drug from a ready and willing
supplier identified by the condemned prisoner. Cf. id.
at 2738.
In short, the Sixth Circuit has grossly distorted the
standard for proving a method-of-execution claim. The
court of appeals’ errors find no basis in controlling case
law; indeed, they unabashedly depart from this

4
Court’s precedent. To prevent the Eighth Amendment’s protections from becoming a dead letter—particularly in light of the substantial evidence of the suffering caused by midazolam-based execution protocols—this Court should grant certiorari.
STATEMENT
Petitioner Warren Keith Henness was convicted of
aggravated murder and sentenced to death. Although
he continues to profess his innocence, he does not challenge the validity of his conviction or his death sentence here.
1. Ohio intends to execute Henness with a protocol
involving intravenous administration of three drugs:
(1) midazolam hydrochloride, (2) a paralytic, and
(3) potassium chloride. By first injecting Henness with
a 500 mg dose of midazolam, a sedative, Ohio hopes to
block or attenuate the pain caused by the protocol’s
second and third drugs. A dose of the second drug will
then paralyze Henness and constrict his breathing.
The potassium chloride will stop his heart.
There is no dispute that Henness would suffer excruciating pain from the combined effects of the paralytic
and potassium chloride, unless the midazolam blocks
or attenuates that pain. The paralytic will prevent
Henness from responding outwardly to the extremely
painful sensations of drowning and suffocation it
causes. The potassium chloride will inflict searing pain
as it enters his veins—pain to which Henness, because
of his paralysis, will be unable to respond. Four Justices have described this suffering as “the chemical
equivalent of being burned at the stake.” Glossip, 135
S. Ct. at 2781 (Sotomayor, J., dissenting).
Avoiding this “constitutionally unacceptable” suffering depends entirely upon the efficacy of the protocol’s

5
first drug and its capacity to lessen an inmate’s experience of the excruciating pain. Baze, 553 U.S. at 53
(plurality opinion). For decades, States relied on barbiturates—such as sodium thiopental or pentobarbital—for this purpose. If properly administered, barbiturates produce prolonged and “deep, comalike unconsciousness.” Id. at 44. Beginning in 2010, however,
some States had trouble obtaining barbiturates and so
began experimenting with different drug combinations
and novel drugs. Ohio and several other States ultimately developed the three-drug protocol at issue here,
using midazolam as the first drug.
But overwhelming scientific evidence and experience with the drug have shown that midazolam, unlike
barbiturates, cannot attenuate the pain that results
from the second and third execution drugs. Midazolam
belongs to a family of drugs known as benzodiazepines,
which includes anti-anxiety medications like Valium
and Xanax. As with other benzodiazepines, midazolam
has no analgesic—i.e., pain-blocking—characteristics.
Instead, it is primarily used to treat anxiety and, in
the clinical setting prior to the induction of anesthesia,
to sedate and relax a patient and block formation of
the traumatic memories attending surgery. Because of
this, “midazolam is not recommended or approved for
use as the sole anesthetic during painful surgery.”
Glossip, 135 S. Ct. at 2742. And it has long been identified, including by Members of this Court, as significantly more likely to inflict pain than barbiturates. See
Zagorski v. Parker, 139 S. Ct. 11, 11–12 (2018) (Sotomayor, J., dissenting from denial of certiorari and
denial of a stay). Ohio nevertheless adopted the midazolam-based three-drug protocol following this
Court’s decision in Glossip, and intends to execute
Henness using that protocol.

6
2. Henness moved for a preliminarily injunction to
stop Ohio from killing him using its midazolam-based
protocol. To prevail on his Eighth Amendment challenge, Henness was required to (1) show that Ohio’s
protocol is “sure or very likely” to cause him severe
pain and (2) “identify” a “feasible, readily implemented” alternative execution method that would “significantly reduce” the pain associated with the midazolam-based protocol. Glossip, 135 S. Ct. at 2737 (quoting Baze, 553 U.S. at 52).
The district court conducted a four-day evidentiary
hearing on Henness’s preliminary injunction motion,
considering testimony from eighteen witnesses, including eight experts, resulting in over 1,400 pages of
transcript, with over 6,400 pages of exhibits. The court
also received into evidence extensive expert and lay
testimony offered in prior preliminary injunction proceedings on behalf of other, similarly situated inmates.
This evidence overwhelmingly supported Henness’s
claim that the midazolam-based protocol would, for
two independent reasons, subject him to severe pain.
Pet. App. 159a–160a.
Henness’s evidence included testimony from “arguably the preeminent scholar on the pharmacological effects of benzodiazepines, including midazolam,” showing that a 500 mg overdose of midazolam is incapable
of blocking or even attenuating the severe pain caused
by the second and third drugs in Ohio’s protocol. Pet.
App. 65a–76a. This is because midazolam lacks analgesic properties and because the drug cannot “sedate
someone to the level of unconsciousness” at which they
will not feel severe pain. Id. at 70a. This holds true,
moreover, “no matter what dose is given” because midazolam merely prevents an inmate from responding
outwardly to pain—not from experiencing it. Id. at
64a, 70a (emphasis omitted). Henness buttressed the

7
overwhelming expert testimony on this issue with numerous firsthand observations demonstrating that inmates remained aware of and sensate to the protocol’s
severe pain. Id. at 35a–39a.
Henness also presented evidence that a 500 mg overdose of midazolam would, by itself, cause him sudden
and severe “pulmonary edema,” where damage to the
lungs fills them with fluid. Pet. App. 40a–51a. This
condition is exceedingly painful, resulting in significant pain, suffocation, and terror akin to the effects of
waterboarding. Id. at 143a. Establishing that he would
suffer those effects, Henness not only offered eyewitness reports of inmates gasping, choking, and coughing during midazolam-based executions, but also provided expert testimony and analysis of autopsy records, which confirmed that the midazolam protocol inflicts severe pulmonary edema. Id. at 51a–63a.
Last, Henness identified an available alternative execution method: injection, via orogastric or nasogastric
tube, of a single dose of the barbiturate secobarbital.
Pet. App. 149a–155a. Henness showed that this
method, which has been used in hundreds of medically
aided deaths across the United States, would entirely
eliminate the pain and terror associated with the midazolam-based execution by rendering an inmate fully
unconscious. Id. Henness also presented evidence that
this execution method was readily adaptable to the execution context and would be, if anything, less susceptible to inmate noncooperation than traditional intravenous injection. Id. at 151a–152a. In addition, Henness identified a supplier of secobarbital who was
ready and willing to sell a sufficient quantity of the
drug to Ohio. Id. at 155a.
Reviewing the evidence, the district court noted that
“[t]he quality of the evidence presented” had “in-

8
creased dramatically” from prior hearings on the constitutionality of Ohio’s protocol. Pet. App. 141a–142a.
And the court had no difficulty concluding that, under
Ohio’s midazolam-based protocol, Henness was “sure
or very likely” to suffer “the severe pain caused by injection of the paralytic drug or potassium chloride or
the severe pain and needless suffering caused by pulmonary edema from the midazolam itself.” Id. at 159a.
For this reason, the district court found it “undisputed” that Henness would suffer irreparable harm
absent a preliminary injunction and that both the balance of the equities and the public interest favored a
preliminary injunction. Id.
The district court nevertheless denied Henness such
relief because he had not, in the court’s view, done
enough to show a viable alternative execution method.
Pet. App. 156a–158a. The court first speculated that
secobarbital could also perhaps cause pulmonary
edema. Id. at 157a. But this conjecture directly contradicted the court’s prior finding that secobarbital
“would likely render [Henness] insensate and allow
him to die in a pain-free manner.” Id. at 156a. That is,
even if pulmonary edema occurred—and there was no
evidence it would—Henness would not feel it. Moreover, the court’s internally inconsistent finding ignored
evidence that it was intravenous injection of midazolam that would cause pulmonary edema; injecting
secobarbital into the stomach obviates that risk entirely.
The court also concluded that Henness had failed to
meet his burden because it was unclear how difficult it
would be for the vendor he identified to obtain a Terminal Distributor of Dangerous Drugs (TDDD) license
from the State of Ohio. Pet. App. 158a. On this point,
Henness sought to submit additional evidence showing
that it was a simple process requiring approval from

9
the same State seeking to execute him—as one expert
testified at the evidentiary hearing, id. at 155a—but
the district court denied the request. Id. at 166a–167a.
Henness filed a timely notice of appeal.
3. The Sixth Circuit affirmed.1 The court did not
take issue with the district court’s findings about the
effects of Ohio’s protocol—i.e., the suffering caused by
the second and third drugs and the “sensations of
drowning and suffocation” from the midazolam-caused
pulmonary edema. Pet. App. 4a. Nor did the Sixth Circuit question the district court’s findings that midazolam has no pain-inhibiting properties and “could not
suppress Henness’s consciousness deeply enough to
prevent him from experiencing either of the identified
types of pain.” Id. Nevertheless, the court held that the
district court had “clearly erred” because Henness had
not shown that he would experience a “constitutionally
problematic level” of pain. Id.
The premise underlying the Sixth Court’s holding
was that the pain and suffering that could occur during a worst-case hanging is simply not “constitutionally cognizable.” See id. (citing Bucklew, 139 S. Ct. at
1122–24). The Sixth Circuit explained that although a
pulmonary edema would cause “sensations of drowning and suffocation[,] . . . that looks a lot like the risks
of pain associated with hanging,” thus barring any
Eighth Amendment claim. Id. The Sixth Circuit similarly concluded that Henness had not shown he would
experience the effects of the paralytic and potassium
chloride at “an unconstitutionally high level.” Id. At no

1 After initially issuing its opinion in September 2019, see Pet.
App. 7a–12a, the court issued a slightly revised opinion three
months later to add additional support for its conclusions, see id.
at 1a–6a. Unless otherwise noted, this petition cites the superseding, revised opinion.

10
point did the Sixth Circuit compare the risk or severity
of pain inflicted by Ohio’s current method with that
posed by the proposed alternative.
Following its holding regarding “constitutionally
cognizable” levels of pain—which it viewed as dispositive, even without a comparison to the proposed alternative—the Sixth Circuit also summarily dismissed
Henness’s proposed alternative execution method.
Specifically, the Sixth Circuit held that Bucklew permits States to reject a method solely “because no other
state uses [it] to carry out . . . execution[s].” Pet. App.
5a. This obtains, the Sixth Circuit asserted, “even if
[the alternative method] is otherwise feasible and capable of being readily implemented.” Id.2 Even though
Henness had identified a willing provider of secobarbital, moreover, the court held that the supplier’s need
to obtain a license (which, again, is entirely at Ohio’s
discretion to give) meant that “Ohio could [not] obtain
secobarbital with an ‘ordinary transactional effort.’”
Id. (quoting Fears v. Morgan (In re Ohio Execution Protocol Litig.), 860 F.3d 881, 891 (6th Cir. 2017) (en
banc)). And the court added that there could be other
complications from adapting the secobarbital method
from the medical aid-in-dying context to the execution
context, notwithstanding that its concerns about nasogastric injection apply equally to intravenous injection. Id. at 5a–6a.
4. Originally scheduled for February 2019, Henness’s execution date has changed several times, most
recently because of the State’s inability to obtain the

2 Significantly, the Sixth Circuit did not affirm the district
court’s contradictory and unfounded suggestion that Henness’s
alternative execution method could cause pulmonary edema.

11
drugs required for the midazolam-based protocol. Henness is currently scheduled to be executed on January
12, 2022.
REASONS FOR GRANTING THE PETITION
The Sixth Circuit’s misreading of Bucklew impairs
Eighth Amendment scrutiny of any execution method
that inflicts suffering at or below the level involved in
a botched hanging. Beginning from the untenable
premise that several minutes of slow suffocation is not
“constitutionally cognizable” suffering, the Sixth Circuit’s decision repudiates the “necessarily comparative” Eighth Amendment analysis that Bucklew requires and flouts the express statement in Baze that
such suffering would be “constitutionally unacceptable.”
The Sixth Circuit’s departure from this Court’s precedent, by itself, warrants this Court’s review. But the
Sixth Circuit’s flawed analysis also infected its consideration of Henness’s proposed alternative method of
execution. Again misreading Bucklew, the Sixth Circuit held that Ohio could refuse to adopt an easily implemented and proven method so long as other States
have not used it to carry out executions. Ossifying
available methods of execution and compounding an
existing circuit conflict, the court of appeals’ flawed
reasoning controverts Bucklew’s unanimous holding
that the States cannot control the scope of the Eighth
Amendment.
The Sixth Circuit then went on to overstate Henness’s burden of identifying an available alternative
method by allowing Ohio to claim that secobarbital is
unavailable, despite making no attempt—let alone the
good-faith efforts this Court has found sufficient—to
obtain the drug from the willing supplier Henness
identified.

12
The Sixth Circuit’s derogation of this Court’s
method-of-execution precedents cries out for review.
The multiple errors in the decision below hinder judicial scrutiny of the midazolam protocol—and they do
so as scientific evidence of the excruciating suffering it
causes continues to mount. With a fulsome factual record and the legal issues cleanly presented, this case is
an ideal vehicle to address the Sixth Circuit’s arbitrary
categorical rules.
I. THIS CASE PRESENTS PRESSING QUESTIONS REGARDING THE STANDARDS
THAT GOVERN METHOD-OF-EXECUTION
CHALLENGES.
A. The Sixth Circuit’s Holding That The
Eighth Amendment Categorically Permits The Pain Of Suffocation Conflicts
With Bucklew And Baze, And Inhibits
Eighth Amendment Review Of Ohio’s Execution Protocol.
By holding that the pain of suffocation is not “constitutionally cognizable,” the Sixth Circuit repudiated
Bucklew’s “necessarily comparative” test for methodof-execution challenges, and categorically condoned severe pain without regard to available alternatives.
1. In reiterating the Baze/Glossip framework,
Bucklew rejected the dissent’s invitation to classify
certain types of pain as categorically acceptable or unacceptable under the Eighth Amendment. Compare
139 S. Ct. at 1126–27 (majority opinion), with id. at
1141–42 (Breyer, J., dissenting). To the contrary,
Bucklew held, “[d]istinguishing between constitutionally permissible and impermissible degrees of pain . . .
is a necessarily comparative exercise” that requires examination of “viable alternative” methods of execution.
Id. at 1126 (majority opinion).

13
This comparative methodology flows from the “original understanding” of the Eighth Amendment. Id. at
1123–24. The prohibition of “cruel and unusual” punishment was not originally understood to “outlaw” capital punishment. Id. at 1122–24. Rather, it was
thought to preclude punishments where “‘terror, pain,
or disgrace [were] superadded’ to the penalty of death.”
Id. at 1123 (alteration in original) (quoting 4 William
Blackstone, Commentaries on the Laws of England 370
(1769)). Although some pain could inevitably attend a
death sentence, the Constitution forbade pain insofar
as it was “superadded” to whatever was necessary for
carrying out the capital sentence. Id. at 1126. The
Eighth Amendment analysis has thus “always involved a comparison with available alternatives.” Id.
at 1127; see also id. (“At common law, the ancient and
barbaric methods of execution . . . were understood to
be cruel precisely because—by comparison to other
available methods—they went so far beyond what was
needed . . . .” (emphasis added)). Only such a comparison reveals whether a State is blameworthy under the
Eighth Amendment—i.e., whether that State has cruelly “superadded” unnecessary pain and suffering.
To be sure, Bucklew declined to address whether
some pain could be so de minimis that it fails to trigger
the Eighth Amendment’s protections at all. See id. at
1133 n.4 (finding it unnecessary to address the argument that the pain alleged was insufficiently “severe”);
cf. Wilkins v. Gaddy, 559 U.S. 34, 37–38 (2010) (per
curiam) (“[P]rohibition of ‘cruel and unusual’ punishments necessarily excludes from constitutional recognition de minimis uses of physical force . . . .” (quoting
Hudson v. McMillian, 503 U.S. 1, 9–10 (1992))). But
questions regarding de miminis pain are purely academic here because Baze left no doubt that suffocation

14
is absolutely the sort of severe pain that triggers the
Eighth Amendment’s comparative framework.
Baze addressed the claim that Kentucky’s maladministration of the barbiturate sodium thiopental
would cause condemned inmates to experience severe
pain and suffering resulting from the subsequent injection of a paralytic (which would cause suffocation)
and potassium chloride (which would cause additional
pain during injection). 553 U.S. at 53–54 (plurality
opinion). The pain at issue in Baze, in other words, was
no more severe than what the district court found Henness certain or very likely to experience under Ohio’s
protocol. Yet Baze took as a given that the “suffocation”
caused by the paralytic would, without proper anesthesia, be “constitutionally unacceptable.” Id. at 53.
Thus, whatever de minimis pain could fall outside
Bucklew’s “necessarily comparative” framework, the
pain at issue here, per Baze, does not.
2. Directly conflicting with these precedents, the
Sixth Circuit’s categorical rule plainly misreads Bucklew.
According to the Sixth Circuit, Bucklew offered “‘instructive’ examples” of “constitutionally cognizable”
degrees of pain, specifying “what qualifies as too severe (‘[b]reaking on the wheel, flaying alive, rending
asunder with horses’) and what does not (hanging).”
Pet. App. 4a (alteration in original) (quoting Bucklew,
139 S. Ct. at 1123). From these examples, the Sixth
Circuit gleaned the following rule: because hanging often “caused death slowly” “through suffocation over
several minutes,” such pain is, as a rule, not “constitutionally cognizable.” Id.
Far from condoning the Sixth Circuit’s rule, however, Bucklew’s discussion of hanging underscores the
necessity of a comparative analysis. Bucklew carefully

15
explained that, despite the “significant pain” that
could3 accompany hanging, the constitutionality of
hanging “was virtually never questioned.” 139 S. Ct. at
1124. But this was not because the “significant pain”
of suffocation was considered per se permissible. Rather, “the risk of pain involved [in hanging] was considered ‘unfortunate but inevitable’” given the alternative execution methods then available. Id. (emphasis
added).4 That hanging could sometimes cause “several
minutes” of “suffocation,” therefore, was constitutionally permissible only under a comparative analysis
proving that the risk of a botch was slight and that the
attendant pain was “inevitable.”

3 The Sixth Circuit also misquoted Bucklew as saying that
“[m]any and perhaps most hangings . . . caused death slowly . . .
through suffocation over several minutes,” whereas Bucklew in
fact made clear that suffering several minutes of suffocation,
though not uncommon, was still a worst-case scenario—hanging
would often cause death instantly or within a few seconds. Compare Pet. App. 4a, with Bucklew, 139 S. Ct. at 1124. Nor was there
any evidence in the record that could have allowed the Sixth Circuit to compare, as it purported to do, the pain from a pulmonary
edema with the pain caused by a hanging. The court of appeals’
analysis on this point was pure speculation.

The Sixth Circuit may have been operating under the assumption that, once considered constitutional, a method of execution becomes immune to constitutional challenge. But that is
wrong. An obvious corollary of the Eighth Amendment’s comparative method is that a once-constitutional execution method may
become unconstitutional as more-humane methods become available. That is not controversial. See, e.g., Bucklew, 139 S. Ct. at
1135 (Thomas, J., concurring) (observing that “the Eighth
Amendment [is not] ‘a static prohibition’ proscribing only ‘the
same things that it proscribed in the 18th century”).
4

16
Based on this misreading, the Sixth Circuit not only
rejected Bucklew’s comparative framework but it did
so in the context of pain that Bucklew described as
“significant,” and which Baze called so severe that it
would be “constitutionally unacceptable” if a less-painful alternative exists. Baze, 553 U.S. at 53 (plurality
opinion). There is little doubt that if the Sixth Circuit’s
rule persists, Ohio will argue that it should foreclose
method-of-execution challenges to the State’s current
lethal injection protocol—or any protocol for that matter. Indeed, the State has already made this argument
in moving to dismiss other pending challenges to
Ohio’s midazolam-based protocol.5 After all, if the slow
suffocation and pain likely to occur during Henness’s
execution is not “constitutionally cognizable,” it is hard
to imagine what, short of the tortures this Court recounted in Bucklew, would qualify for that label. This
Court should grant the petition to correct the Sixth
Circuit’s repudiation of Baze and Bucklew and to ensure the lower court’s categorical analysis does not infect the other circuits.

5 See, e.g., State Actor Defendants’ Motion to Dismiss Plaintiff
Bobby Sheppard’s Third Amended Individual Supplemental
Complaint at 4–6, In re Ohio Execution Protocol Litig., No. 2:11cv-01016 (S.D. Ohio Mar. 2, 2020) (ECF No. 2926) (asserting that
the Sixth Circuit’s decision “categorically rejected” challenges to
Ohio’s midazolam protocol). The United States Solicitor General
also recently adopted a similarly categorical reading of the Sixth
Circuit’s decision below, characterizing the Sixth Circuit as holding that pain associated with pulmonary edema is categorically
insufficient to qualify as “severe” for Eighth Amendment purposes. See Application for a Stay or Vacatur of the Injunction Issued by the United States District Court for the District of Columbia at 25, In re Fed. Bureau of Prisons’ Execution Protocol
Cases, No. 20A8 (U.S. July 13, 2020).

17
B. By Allowing Ohio To Reject As “Experiment[al]” Any Execution Method Unused
By Other States, The Sixth Circuit
Wrongly Let State Law Dictate The
Eighth Amendment’s Scope.
Doubling down on categorical rules, the Sixth Circuit rejected Henness’s proposal for a substantially
less painful method of execution—a single dose of the
barbiturate secobarbital—on the ground that a State
could legitimately reject as “experiment[al]” any execution method unused by other States for executions,
regardless of whether that method is a proven and effective means of causing death. See Pet. App. 5a. This
per se rule misconstrues Bucklew’s use of the word “experiment,” ignores this Court’s fact-driven analysis of,
inter alia, scientific studies, and erroneously allows
state law to control the Eighth Amendment analysis,
thereby limiting available execution methods and
deepening an existing circuit conflict.
1. In Bucklew, this Court said expressly that States
cannot “control[]” the scope of the Eighth Amendment
by refusing to authorize—and thus make unavailable—certain execution methods. 139 S. Ct. at 1128
(“[T]he Eighth Amendment is the supreme law of the
land, and the comparative assessment it requires can’t
be controlled by the State’s choice of which methods to
authorize in its statutes.”). In so holding, the Court
overruled lower court decisions finding that, to be viable, an execution method must be authorized by state
law. See, e.g., Arthur v. Comm’r, Ala. Dep’t of Corr.,
840 F.3d 1268, 1315 (11th Cir. 2016), abrogated in part
by Bucklew v. Precythe, 139 S. Ct. 1112 (2019). This
Court’s repudiation of that position was explicit and
unanimous, as Justice Kavanaugh wrote separately to

18
emphasize. See Bucklew, 139 S. Ct. at 1136 (Kavanaugh, J., concurring) (“Importantly, all nine Justices today agree on that point.”).
Bucklew’s unanimity on this issue makes perfect
sense in light of the “necessarily comparative” analysis
this Court requires. Id. at 1126, 1130 (majority opinion). Again, the Eighth Amendment analysis looks at
“whether the State’s chosen method of execution cruelly superadds pain” that is unnecessary given alternative execution methods. Id. at 1125. But allowing a
State’s “choice of which methods to authorize in its
statutes” to determine which methods are viable puts
the fox in charge of the henhouse, and makes state
law—rather than the Eighth Amendment—“the supreme law of the land.” Id. at 1128.
That does not mean, of course, that States’ chosen
execution methods are irrelevant to the constitutional
analysis. A court cannot “compel a State to adopt ‘untried and untested’ (and thus unusual in the constitutional sense) methods of execution.” Id. at 1130. There
must be evidence of the alternative method’s “comparative efficacy.” Baze, 553 U.S. at 57 (plurality opinion).
And if an execution method has been “widely used” by
States, there is likely ample evidence regarding its effectiveness at causing death. By contrast, if no State
has authorized an execution method, there may simply
be no evidence regarding its use. See Bucklew, 139
S. Ct. at 1130 (noting that execution by nitrogen hypoxia “had ‘no track record of successful use’”). Nevertheless, whether all States use a certain execution
method (or none does) is merely “probative but not conclusive” regarding the viability of a given method.
Baze, 553 U.S. at 53 (plurality opinion).
2. The Sixth Circuit has made a “probative” fact—
that no States use secobarbital for executions—“con-

19
clusive” of the Eighth Amendment analysis. In so doing, it has impermissibly allowed state law to control
the Eighth Amendment’s scope.
Under the Sixth Circuit’s categorical rule, States
have total control over the viability of alternative execution protocols. Until one State has adopted a new execution method, no other State may be required to consider that method as a possible alternative, no matter
how feasible or proven that method is. See Pet. App.
5a (explaining that Ohio could reject such a method
“even if it is otherwise feasible and capable of being
readily implemented”). Such a rule incentivizes collective sclerosis among the States and is directly contrary
to Bucklew’s “holding that the alternative method of
execution need not be authorized under current state
law.” 139 S. Ct. at 1136 (Kavanaugh, J., concurring);
see also Baze, 553 U.S. at 62 n.7 (plurality opinion)
(taking for granted that States will continue to adopt
“progressively more humane methods of execution”).
This rule, like the Sixth Circuit’s assertions regarding “constitutionally cognizable” levels of pain, stems
from a misreading of Bucklew. To support its position,
the Sixth Circuit relied exclusively on Bucklew’s statement that “choosing not to be the first [State] to experiment with a new method of execution is a legitimate
reason to reject it.” Pet. App. 5a (quoting Bucklew, 139
S. Ct. at 1128–30). But the Sixth Circuit ignored the
meaning of “experiment” in that context.
Bucklew—like Baze before it—was simply reiterating that a court could not compel a State to adopt a
method of execution that was “untried and untested”
at causing death. Bucklew, 139 S. Ct. at 1130. Thus,
Bucklew rejected an inmate’s proposal of execution by
nitrogen hypoxia because it was not “a proven alternative method.” Id. (emphasis added). The point was neither simply nor primarily that no States use nitrogen

20
hypoxia as an execution method; in fact, Bucklew
noted that several States had recently adopted the
method. Id. at 1130 n.1. Rather, nitrogen hypoxia was
an “experiment” because there was no evidence—“no
track record” and even “no study”—that it was as “effective” or “humane” in causing death as the singledrug barbiturate protocol Missouri already used; that
it would avoid the pain that would be inflicted by Missouri’s lethal injection method; or that such a method
could be readily adopted in an execution setting. Id. at
1130; see also Baze, 553 U.S. at 57 (plurality opinion)
(rejecting alternative method because inmates had
“proffered no study showing that it is an equally effective manner of imposing a death sentence” and there
was evidence suggesting it was less effective).
There is a patent disconnect between Baze and Bucklew’s fact-driven analysis, on the one hand, and the
Sixth Circuit’s categorical rule on the other. Indeed,
Bucklew and Baze would have had no cause to discuss
the absence of scientific studies and other evidence if
the fact that no States used the methods at issue were
dispositive. The Sixth Circuit’s failure to distinguish
between what is “probative” and what is “conclusive”
vitiates its per se rule. Baze, 553 U.S. at 53 (plurality
opinion).
The Sixth Circuit’s error was especially egregious
because Henness’s proposed alternative was, under
Bucklew, no “experiment” at all. Henness did not offer
a “bare-bones proposal” involving a method with “no
track record of successful use.” See Bucklew, 139 S. Ct.
at 1129–30. To the contrary, the humanity and effectiveness of causing death via a single dose of secobarbital has an extensive record of success in hundreds of
cases across the United States and the world in the
medical aid-in-dying context. And Henness offered expert testimony showing that the method could readily

21
be adapted for the execution context. In short, the evidence supporting Henness’s proposed method responds to all the concerns this Court identified in
Bucklew and in Baze. Henness offered a proven (not
experimental) alternative, and the Sixth Circuit rejected it nonetheless.
Aside from its conflict with (and misreading of)
Bucklew, the Sixth Circuit’s rule suffers from additional defects, underscoring the need for this Court’s
review. For one, the Sixth Circuit leaves open confusing questions regarding how different an execution
method must be for it to be considered an “experiment.” Does any novelty in the proposed alternative
protocol allow a State to reject it, or must it be materially different in some sense? If the former, then the
Sixth Circuit’s rule devolves into the sort of arbitrary,
categorical assertion this Court’s fact-driven analysis
in Bucklew, Glossip, and Baze should foreclose. Cf.
Bucklew, 139 S. Ct at 1126 (rejecting categorical analysis). But if it is the latter, then Ohio must explain why
it refuses to consider use of secobarbital when it has
executed prisoners using a single dose of similar barbiturates, i.e., pentobarbital and sodium thiopental.6
Ohio’s claimed refusal to consider execution-by-secobarbital
based on its purported novelty is particularly misguided given
that Ohio has historically been the State most willing to try new
execution methods, and was the first adopter of new methods at
least three times since the Court’s decision in Baze: Ohio was the
first State to adopt the single-drug thiopental protocol, see Edecio
Martinez, Kenneth Biros Execution: Ohio Man First to Die Under
1-Drug Thiopental Sodium Method, CBS News (Dec. 8, 2009),
https://cbsn.ws/2MYYJZb; Ohio was the first State to use a singledrug pentobarbital protocol, see Edecio Martinez, Ohio Execution
Uses Animal Euthanasia Drug, CBS News (Mar. 11, 2011),
6

22
The Sixth Circuit’s per se rule also deepens divisions
among the circuits about when a State can reject a purportedly “experiment[al]” method. The Eighth Circuit
agrees with the Sixth Circuit, holding that a plaintiff’s
failure to show that “any State has carried out an execution by use of nitrogen gas” allows a State to reject
that method categorically. Johnson v. Precythe, 954
F.3d 1098, 1102 (8th Cir. 2020). But the Eleventh Circuit reached essentially the opposite conclusion regarding the same method of execution. See Price
v. Comm’r, Ala. Dep’t of Corr., 920 F.3d 1317, 1326
(11th Cir.) (per curiam), cert. denied sub nom. Price v.
Dunn, 139 S. Ct. 1542 (2019). In Price, the Eleventh
Circuit acknowledged Bucklew’s holding. Id. at 1327.
But the court held that, notwithstanding the absence
of any executions by nitrogen hypoxia, Alabama’s statutory authorization of that method meant the State
could not deny it upon an inmate’s request. Id. at
1326–28.
It is striking that for both the Eighth and the Eleventh Circuits—and the Sixth Circuit’s decision here—
the Eighth Amendment analysis begins and ends with
what the States have authorized. That is exactly the
analysis rejected by all nine Justices in Bucklew. See
139 S. Ct. at 1136 (Kavanaugh, J., concurring). This
https://cbsn.ws/30qyTVP; and Ohio was the first State to use a
two-drug combination of midazolam and hydromorphone in an execution, see In re Ohio Execution Protocol Litig., 994 F. Supp. 2d
906, 913 (S.D. Ohio 2014) (“There is absolutely no question that
Ohio’s current protocol presents an experiment in lethal injection
processes. . . . To pretend otherwise, or that either of the experts
or this Court truly knows what the outcome of that experiment
will be, would be disingenuous.”); see also Cooey v. Strickland, 604
F.3d 939, 948 (6th Cir. 2010) (Martin, J., dissenting) (characterizing Ohio’s shifting protocols as “the functional equivalent of human experimentation. We tell Ohio to just keep going until an
experiment goes horribly awry . . . .”).

23
Court’s review is needed to resolve the circuits’ misreading of controlling precedent.
C. The Sixth Circuit “Overstated” An Inmate’s Burden By Letting Ohio Reject An
Alternative Drug As “Unavailable” Despite Making No Effort To Obtain The
Drug From A Ready And Willing Vendor.
Further insulating Ohio’s midazolam protocol from
constitutional scrutiny, the Sixth Circuit has “overstated” the condemned inmate’s “burden of showing a
readily available alternative,” see Bucklew, 139 S. Ct.
at 1128, 1130, by allowing Ohio to reject as “unavailable” a drug it has never tried to obtain.
1. Though not undertaking to define “availability,”
Glossip and Bucklew both indicate that there must be
evidence that a drug is actually unavailable before a
State can reject it on that basis. In Glossip, for example, inmates proffered sodium thiopental or pentobarbital as alternative execution drugs, but these drugs
had become actually “unavailable.” 135 S. Ct. at 2738.
Affirming that the State could reject the alternative
drugs, Glossip emphasized that the State had “been
unable to procure those drugs despite a good-faith effort to do so.” Id. Bucklew subsequently distilled Glossip’s analysis into the following rule: “a State can’t be
faulted for failing to use lethal injection drugs that it’s
unable to procure through good-faith efforts.” Bucklew,
139 S. Ct. at 1125 (emphasis added) (citing Glossip,
135 S. Ct. at 2737–38). Thus, by focusing on the State’s
good-faith attempts to obtain the alternative drugs,
Glossip and Bucklew underscore that there must be
some evidence of the drugs’ actual unavailability.
A contrary rule would plainly overstate an inmate’s
burden to “identify” or “point to” an available alternative. Id. at 1128. Bucklew, in fact, took great pains to

24
emphasize that this burden should not “be overstated,”
especially where “an inmate [is] facing a serious risk
of pain.” Id. at 1128–29. Justice Kavanaugh’s separate
concurrence also highlighted this point. Id. at 1136
(Kavanaugh, J., concurring) (“I simply emphasize the
Court’s statement that ‘we see little likelihood that an
inmate facing a serious risk of pain will be unable to
identify an available alternative.’”).
2. The Sixth Circuit’s rule turns this principle on its
head. Notwithstanding expert testimony identifying a
vendor ready and willing to sell Ohio secobarbital, the
Sixth Circuit announced that Henness had “failed to
show that Ohio could obtain secobarbital with an ‘ordinary transactional effort.’” Pet. App. 5a (quoting
Fears, 860 F.3d at 891).7 But unlike in Glossip, there
was no evidence that Ohio had “been unable to procure
[the secobarbital] despite a good-faith effort to do so.”
See 135 S. Ct. at 2738 (emphasis added). To the contrary, Ohio took no steps to procure the drug. True,
Ohio needed to grant the identified supplier a TDDD
license before the drug could be purchased. But Ohio
offered no competent evidence that it would be unable
to grant the supplier such a license or that the drug
would be otherwise difficult to obtain. At most, acquiring the TDDD license could impose a minor administrative box to check prior to procurement. But, again,
Henness’s burden was merely to “identify” an available alternative drug—not to procure it himself, and
certainly not to walk the State through the process of
granting a license that it alone has the discretion to
grant.

7 Although the Sixth Circuit discussed this issue in deciding
that Henness had not proposed a “feasible” alternative, the issue
plainly concerns the “availability” of the proposed alternative
method. See Pet. App. 5a.

25
After all, unless a State already uses a proposed alternative method of execution—a prerequisite Bucklew unanimously rejected—the State will invariably
need to take some steps to procure and implement it.
Thus, in Bucklew, the State suggested that “the firing
squad would be such an available alternative.” 139
S. Ct. at 1136 (Kavanaugh, J., concurring). But the effort required to implement execution by firing squad—
hiring and training marksmen, setting up the execution chamber, etc.—would be at least as (if not much
more) time consuming and logistically complicated
than granting a vendor an Ohio TDDD license. And
Ohio’s complaint about the inconvenience of providing
such a license is all the more unpersuasive given that
the State was forced to put its scheduled executions on
hold because of problems obtaining drugs for the current protocol. See Jo Ingles, Governor Issues Three Reprieves of Execution, WKSU (Feb. 1, 2020), https://
www.wksu.org/post/governor-issues-three-reprievesexecution#stream/0.
For these reasons, this Court should grant certiorari
to clarify that, at least when an inmate has identified
a ready and willing drug supplier, there must be some
evidence of the State’s good-faith efforts—and the
drug’s unavailability despite those efforts—before a
court can reject it on that basis.
II. THIS CASE IS AN IDEAL VEHICLE FOR ADDRESSING THESE EXCEPTIONALLY IMPORTANT QUESTIONS.
The Sixth Circuit’s erroneous per se rules for analyzing method-of-execution claims will inhibit further
scrutiny of Ohio’s execution protocol—and, for that
matter, of any conceivable lethal injection protocol.
Again, if the pain of slow suffocation is not “constitutionally cognizable,” it is alarming to imagine what—
short of being flayed alive or broken on the wheel—

26
would so qualify. Even if an inmate could allege “constitutionally cognizable” pain under this misguided
standard, the Sixth Circuit’s overstatement of an inmate’s burden to show that an execution drug is not an
“experiment” and is “available” creates additional—
and erroneous—hurdles to review of method-of-execution claims.
What’s more, the Sixth Circuit hinders scrutiny of a
midazolam-based protocol at a time when the stakes of
removing that protocol from judicial review are high,
and getting higher. Several States, including Florida
and Arizona, have abandoned midazolam in the face of
botched executions and mounting proof of its ineffectiveness. And the federal government, recently seeking to resume executions, disregarded the ready availability of midazolam and refused to adopt any midazolam-based protocol because of its patent hazardousness. See In re Fed. Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106, 128 (D.C. Cir. 2020) (per curiam) (Katsas, J., concurring) (commenting that the
federal government’s “hesitation” to use midazolam
“proved reasonable, as four Justices would later describe this protocol as possibly ‘the chemical equivalent of being burned at the stake.’” (quoting Glossip,
135 S. Ct. at 2781 (Sotomayor, J., dissenting))), cert.
denied sub nom. Bourgeois v. Barr, No. 19-1348, 2020
WL 3492763 (U.S. June 29, 2020). The Sixth Circuit’s
decision allows Ohio to remain willfully blind to the
scientific consensus regarding midazolam’s unconscionable effects.
Because this decision presents constitutional questions of great significance, moreover, it does not matter
that only one question presented involves a circuit conflict. As this Court has held countless times, when the

27
stakes are high, a circuit split is unnecessary.8 And
method-of-execution challenges are quintessentially
matters of exceptional importance that reach “beyond
the academic.” See Rice v. Sioux City Mem’l Park Cemetery, Inc., 349 U.S. 70, 74 (1955). It is unsurprising,
therefore, that neither Baze nor Glossip nor Bucklew
involved a circuit split. Here, even more so than in
those cases—because a circuit conflict has already materialized—there is no reason to await further “percolation” in the lower courts. See Arizona v. Evans, 514
U.S. 1, 23 n.1 (1995) (Ginsburg, J., dissenting).
This case also presents an excellent vehicle to address the questions underlying the Sixth Circuit’s departure from Bucklew, Glossip, and Baze. The factual
record is the best that a preliminary injunction proceeding will permit, the issues are cleanly presented,
and Henness’s execution is not scheduled until January 2022. This last point is particularly salient, given
this Court’s concern that condemned inmates sometimes use eleventh-hour method-of-execution challenges “to interpose unjustified delay,” thereby frustrating States’ interest in the timely enforcement of
capital sentences. Bucklew, 139 S. Ct. at 1134; see also
Barr v. Lee, No. 20A8, 2020 WL 3964985, at *2 (U.S.
July 14, 2020) (per curiam) (vacating stay of execution
because plaintiffs had not made the heightened “showing required to justify last-minute intervention”). With
almost two years before Henness’s scheduled execution date, granting review implicates none of the temporal concerns this Court has raised repeatedly.
8 See, e.g., Advocate Health Care Network v. Stapleton, 137
S. Ct. 1652, 1657 (2017) (granting certiorari without a genuine
split “[i]n light of the importance of the issue”); Haywood
v. Drown, 556 U.S. 729, 733 (2009) (granting certiorari without a
genuine split because of “the importance of the question decided”
by the lower court).

28
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
DEBORAH WILLIAMS
FEDERAL PUBLIC DEFENDER
SOUTHERN DISTRICT OF
OHIO
DAVID C. STEBBINS
ALLEN L. BOHNERT
ADAM M. RUSNAK
PAUL R. BOTTEI
LISA M. LAGOS
THEODORE C. TANSKI
10 W. Broad Street
Suite 1020
Columbus, OH 43215
(614) 469-2999

JEAN-CLAUDE ANDRÉ *
COLLIN P. WEDEL
ANDREW B. TALAI
SIDLEY AUSTIN LLP
555 W. Fifth Street
Suite 4000
Los Angeles, CA 90013
(213) 896-6000
jcandre@sidley.com
J. MANUEL VALLE
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

Counsel for Petitioner
July 17, 2020

* Counsel of Record

